No. 20-843

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., et al.,
Petitioners,
v.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, e¢ al.,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, John D. Ohlendorf, a
member of the Supreme Court Bar, certify that the BRIEF OF AMICUS CU-
RIAE J. JOEL ALICEA in the above entitled case complies with the typeface
requirements of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text and 10 point for the footnotes, and that this
brief complies with the word limitation of Supreme Court Rule 33.1(g)(xii), con-
taining 7,757 words, excluding the parts that are exempted by Supreme Court

Rule 33.1(d).

     

Date: July 19, 2021 J
John D. Ohlendorf

 

 

 
